No.

SUPREME COURT OF THE UNITED STATES

DANIEL T. MORGAN
Petitioner
v.
SHERI A. MORGAN
Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPERIOR COURT OF PENNSYLVANIA

CERTIFICATE OF COMPLIANCE
WITH WORD LIMITATIONS

I, Anthony J. Vetrano, counsel for Daniel T. Morgan, certify that Daniel T.

Morgan’s petition for writ of certiorari contains 8,724 words.

 

Anthony. Vetrano

counsel of record

Vetrano Vetrano & Feinman LLC
Suite 215

630 Freedom Business Center Drive
King of Prussia, PA 19406
tonyvetrano@vetranolaw.com
610-265-4441
